U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

October 4, 2021

Brian T. Burgess
Goodwin Proctor LLP
1900 N Street, N.W.
Washington, DC 20036
Re:

Impax Laboratories, Inc. v. Federal Trade Commission
S. Ct. No. 21-406,

Dear Mr. Burgess:
As requested in your letter dated October 1, 2021, I hereby consent to the filing of an
amicus curiae brief in the above-captioned case on behalf of the Association for Accessible
Medicines.
Very truly yours,

BRIAN H. FLETCHER
Acting Solicitor General

